<html>
<title> - OVERVIEW OF U.S. RELATIONS WITH EUROPE AND EURASIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
           OVERVIEW OF U.S. RELATIONS WITH EUROPE AND EURASIA

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2011

                               __________

                           Serial No. 112-20

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
65-054                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Assistant Secretary, Bureau of 
  Central and South Asian Affairs, U.S. Department of State......     9
The Honorable Philip H. Gordon, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     4
The Honorable Robert O. Blake: Prepared statement................    12
The Honorable Philip H. Gordon: Prepared statement...............    24

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Questions submitted for the record.............    50


           OVERVIEW OF U.S. RELATIONS WITH EUROPE AND EURASIA

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2255, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Mr. Burton. The subcommittee will come to order.
    The Subcommittee on Europe and Eurasia is holding its first 
oversight hearing entitled Overview of U.S. Policy Toward 
Europe and Eurasia.
    First I would like to welcome our witnesses: Assistant 
Secretary Philip H. Gordon, who is the State Department's 
Assistant Secretary for European and Eurasian Affairs; and 
Assistant Secretary Robert O. Blake of the State Department's 
Bureau of South and Central Asian Affairs. I want to thank you 
for your service to our Nation. And I want to thank you for 
your patience today, because we were stuck in our office 
without any idea of when we would get started.
    As chairman it is my desire to work with the administration 
and my colleagues on both sides of the aisle to address 
security and economic challenges facing the United States and 
our allies in Europe. I sincerely look forward to working with 
my good friend from New York, Ranking Member Greg Meeks, if he 
ever gets here. And I also want to recognize Tim Griffin who is 
going to be the vice chairman of the subcommittee. Tim is 
meeting with the Speaker right now but he will be here shortly.
    It is a real pleasure to work with these gentlemen and I 
think the committee is going to have a lot to do over the next 
few months. I think we have four scheduled trips throughout 
Europe and Eurasia and we will look forward to working with you 
folks.
    Today, I will ask both witnesses to identify what they see 
as the most pressing issues and relationships that they believe 
require and deserve the most attention in Europe, Eurasia, and 
Central Asia. Last week, Secretary Clinton told the committee 
that the President's Fiscal Year 2012 budget request proposes 
to cut economic assistance to Central and Eastern Europe, the 
Caucasus, and Central Asia by 15 percent. I applaud the fiscal 
spirit of eliminating wasteful spending and encourage the 
Department to look at ways to trim more because of the economic 
situation this country faces.
    In the upcoming months we will hold many oversight hearings 
and we will focus on ways to reduce spending and make aid more 
productive. In particular, we will look at reasons for reducing 
assistance to some countries while increasing aid to others. It 
would help to understand your plans to engage the countries 
which might receive less assistance in the future, but still 
have pressing issues.
    History has taught us that when the United States 
disengages, others fill the void. And we are very concerned 
about who might do that. This becomes a problem if other actors 
don't share our values. However, we can't just continue to 
throw money at a problem and think it is going to solve it. 
Although we do not agree on every issue, the transatlantic 
community has worked together for decades to address matters of 
mutual concern. Even as the security environment and economic 
conditions have changed, we continue to cooperate to foster 
prosperity in the Balkans, fight terrorism through the North 
Atlantic Treaty Organization (NATO) in Afghanistan, halt 
proliferation of missiles and nuclear weapons in Iran and North 
Korea, and promote democracy and human rights to the east of 
the European Union's borders as well as around the world.
    This subcommittee will champion a similar agenda. We would 
be interested in your brief assessment of what opportunities 
exist to do better on these issues with the governments and 
societies in the region under this subcommittee's jurisdiction.
    In addition to being interested in what the 
administration's priorities in the region are, it would also be 
illuminating to know how the administration is reaching out to 
Europe to achieve all of these goals. Between the bilateral 
ties, Organization for Security and Cooperation in Europe, 
NATO, and the European Union, one could spend too much time in 
meetings and await consensus that may never be attained.
    To avoid that, what is the status of the State Department's 
adjustments to our mission to the European Union to work more 
actively and effectively with the post-Lisbon European Union 
institutions, as called for on page 47 of the State 
Department's first Quadrennial Diplomacy and Development 
Review.
    Given our fiscal constraints, the United States should 
better coordinate with the EU to develop economic opportunity 
and the rule of law in Central Asia. The ranking member and I 
met with Kyrgyzstan's President earlier this week. We discussed 
their transition to democracy, the importance of the U.S. 
Transit Center at Manas as well as the enormous resource 
potential of the Central Asian region. Now it would be great to 
find out how the administration is assisting the business 
community to foster opportunities for business development 
there while balancing human rights and security.
    Other countries important to the U.S. interests are in the 
Balkans where our work is not finished until they are 
integrated into the European Union and NATO. I just got back 
from the Balkans and I know we still have problems there, but 
we are anxious to solve those. I think once they become part of 
the EU, it will be a lot better as far as making sure we don't 
have conflicts in that region.
    I see Mr. Meeks has arrived. Had to start without you 
because we may have some votes here, my buddy.
    We believe that the Baltics deserve more attention as well. 
Many feel that the administration has pursued the policy of 
resetting relations with Russia at the expense of allies like 
Lithuania, Latvia, and Estonia and we don't think that is 
acceptable.
    The Caucasus are still a security concern and the tensions 
between Georgia and Russia have not rescinded. The Winter 
Olympics are to be held in Russia, a short drive from the 
tension zone, and will take place in early 2014. I know our 
witnesses have worked tirelessly to reassure governments in the 
Baltics and Caucasus. And I am less certain about the value of 
the reset policy to the long-term U.S. national interest 
globally and in the Europe and Eurasia region.
    As we move forward, we will examine these and other 
strategic issues in greater detail through a robust hearing 
agenda, we are going to have a robust traveling agenda as well, 
we will work to restore our proper oversight duties and to 
engage the Obama administration on the challenges and 
priorities of U.S. policy toward Europe Eurasia, and Central 
Asia,
    I believe Congress should not simply rubber-stamp State 
Department policies, no reflection on you guys, but you know 
what I mean. And I look forward to working with the ranking 
member, Mr. Meeks, on these issues I have mentioned and the 
items he is interested in.
    And with that, I recognize Mr. Meeks for his opening 
statement. Great to have you here.
    [The prepared statement of Mr. Burton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Meeks. Thank you, Mr. Chairman. And again in our first 
meeting, I look forward to working with you and traveling with 
you as we go about doing our work on the subcommittee, and I 
think we can do some good work together.
    Mr. Burton. Well, we have traveled together before and we 
get along pretty well.
    Mr. Meeks. Absolutely.
    Let me first of all welcome Assistant Secretary Gordon and 
Assistant Secretary Blake for being with us today and providing 
basically what I believe will be a tour of Europe, Eurasia, and 
Central Asia and the priorities and challenges that the State 
Department policymakers and implementers will confront in the 
year ahead.
    I also want to thank you for your unflagging efforts to 
advance U.S. interests abroad. Both of you cover such a broad 
swath of the world and manage complex bilateral and 
multilateral relationships. It is by dint of your nimble, 
skillful diplomacy, and that of the teams of officers and 
specialists you lead, that the U.S. maintains the productive 
relationships throughout these vast regions. Even with 
countries, sometimes neighboring countries, that have serious 
points of conflict with one another, such diplomatic successes 
often requires to us take part or even take the lead at 
mediating disputes or negotiating resolutions to conflicts from 
far away.
    It is clear to me that the State Department's skilled 
leadership in building alliances, resolving conflicts and 
crises makes the world a safer place. As Secretary Gates says, 
though, our investment in diplomacy not only achieves results, 
it does so on the cheap compared to the cost of military 
intervention to keep or restore peace.
    Our dynamic relationship with the countries and 
institutions of Europe are complex, to say the least. 
Transatlantic trade and investment bind us together in mutually 
beneficial relationships, creating jobs and wealth. Europe and 
the United States depend on one another's political support and 
leadership to address natural and political crises, 
participating through the EU and NATO or bilaterally to address 
concerns for our field.
    Not surprisingly, therefore, of particular interest to me 
is our transatlantic partnership and how we and NATO and the EU 
members are coordinating efforts and influence to resolve 
crises that threaten global security. I will also be interested 
in hearing your views on the prospects of the frozen conflicts 
in the regions you cover.
    As the world watches with both excitement and trepidation 
of potential transformation of Northern Africa and the Middle 
East, questions arise about the effect that the movement for 
freedom and open societies might have in a place like Belarus, 
where Europe's last dictator still holds sway. We want to 
assure our partners in Europe that they continue to be 
important to us and that we need each other to prosper and that 
we need one another to ensure global stability.
    Turning briefly to Central Asia, I accept the argument that 
Central Asia matters to the United States. This is most obvious 
in Pakistan and Afghanistan. And we appreciate all that Central 
Asian countries do to support the Northern Distribution 
Network.
    In my role as the ranking member, I look forward and know I 
will work together with Chairman Burton and do my best to 
deepen these relationships through engagement with 
parliamentarians and government officials.
    Finally, in the course of advancing the U.S. interests and 
securing peace and stability and in opening markets for U.S. 
trade and investment, in the past we sometimes forged unholy 
alliances. That is, we looked the other way at a government's 
domestic policies regarding human rights, particularly minority 
and women's rights or freedom of speech. We need to be sure, 
going forward, that the reliable partners with whom we seek to 
do business are also respectable partners; that along with our 
economic and political agenda, we advance and insist on respect 
for human and civil rights.
    So this committee has broad jurisdiction and indeed we are 
living history today. The camera of history is rolling on us. 
And I look forward to working together again with my colleague, 
Mr. Burton, on the other side of the aisle and my colleagues on 
our side, working together to make this place we call Earth a 
better place because we work together with our allies in Europe 
and Central Asia.
    Mr. Burton. Thank you, Mr. Meeks.
    Do any of the other members have opening statements they 
would like to make? You are recognized.
    Mr. Sires. Thank you, Mr. Chairman. First, let me 
compliment the staff for getting this room together in such a 
short period of time. They ran around pretty good to try to get 
this done.
    Thank you very much for holding this hearing, Mr. Chairman, 
to assess American relations with Europe and Eurasia. Europe 
has and will continue to be a vital partner of the United 
States in addressing critical global challenges. On practically 
all major U.S. economic and foreign policy concerns, we have 
European allies for cooperation and leadership, U.S.-European 
cooperation in countries such as Afghanistan, Iran, the Middle 
East and Russia, and on counterterrorism will play an important 
role in our decision regarding future policies affecting these 
areas.
    While we may not agree on every aspect of every issue, our 
transatlantic partnership thrives due to our shared values, 
overlapping interests and similar goals. For this reason, the 
U.S. has long supported European efforts of political and 
economic integration. A stronger European Union is both in the 
best interest of America and the greatest way to force a stable 
and prosperous Europe.
    Moving forward, I think it will be critical for this 
subcommittee over the course of this Congress to evaluate such 
topics as transatlantic secured relations in respect to NATO 
and the effectiveness of such Europe-Atlantic security 
institutions, as well as focus on developments within Europe 
that undoubtedly have a profound effect on transatlantic 
relations such as the Eurozone debt crisis, the evaluation of 
the EU and reform efforts in the Balkans and states of the 
former Soviet Union. And I thank you.
    Mr. Burton. Eliot?
    Mr. Engel. Mr. Chairman, first of all, I want to take the 
opportunity to congratulate you and welcome you as chairman. I 
am glad that I am serving on this panel. You and I have had 
many years together on this committee and, in fact, on the 
Western Hemisphere Subcommittee where you were the chair and I 
was ranking, and then I was the chair and you were ranking, and 
we worked together. And one of the things that has always been 
the case is that we have shared so many common goals in terms 
of the way we would like to see the United States relate to our 
friends and neighbors, and even our adversaries as well. So I 
know you are going to do a great job.
    I want to welcome our Secretaries, both of whom do 
excellent jobs and both of whom I have had the pleasure of 
working with. And, you know, every region is important, but if 
there is a region that the United States has had a special 
relationship with through the years, it certainly has been our 
allies in Europe. And that is why we care so much about what 
goes on in Europe, we care so much about what happens in the 
European Union, even though we are obviously not members of the 
European Union. And I firmly believe that without the strong 
United States presence in Europe, we can't always count on 
everyone, without us, to do the right thing.
    You know, as I have had discussions on one of my particular 
areas of concern, Kosovo and the Balkans, and I really just 
want to stress how important it is that I believe the United 
States has a presence at these meetings with the Kosovo-Serbia 
talks every step of the way. I think if the United States is 
not involved--I am not so sure we saw in Bosnia years ago, and 
then in Kosovo in 1999, when the United States didn't get 
involved, things tended not to go right.
    I also want to mention something that is on everyone's 
mind; of course, that is Libya. And we know that anything that 
the United States does or doesn't do in Libya should absolutely 
be coordinated with our allies in the region. It can't be the 
United States doing something and looking again like it is off 
on its own.
    So I would be interested in hearing your comments which I 
am sure you will have on Libya, and also on the Balkans, with 
Kosovo in particular.
    Mr. Chairman, again I look forward to working with you.
    Mr. Burton. Thank you, Mr. Chair--I want to call you Mr. 
Chairman again, Eliot.
    Mr. Engel. Well, once was and hopefully will be again, you 
know.
    Mr. Gallegly. We are still looking for a few good people.
    Mr. Burton. All right. Robert Blake, Assistant Secretary 
for South and Central Asian Affairs. His term of appointment 
was from May 2009 to now. He is a career Foreign Service 
Officer. Ambassador Blake entered the Foreign Service in 1985. 
He served at the American Embassies in Tunisia, Algeria, 
Nigeria and Egypt, those troubled areas. He held a number of 
positions at the State Department in Washington, including 
senior desk officer for Turkey, Deputy Executive Secretary and 
Executive Assistant to the Under Secretary for Political 
Affairs. Ambassador Blake served as Deputy Chief of Missions at 
the U.S. Mission in New Delhi, India, from 2003 to 2006; as 
Ambassador to Sri Lanka and Maldives, from 2006 to 2009; as 
Assistant Secretary for South and Central Asian affairs, from 
May until now. Mr. Blake earned his B.A.--why didn't you go to 
a Big 10 school instead of Harvard? You have to settle for 
second rate?
    Ambassador Blake. Oh, dear. The oversight is starting 
already.
    Mr. Burton. He went to Harvard and got his B.A. in 1980 and 
an M.A. in international relations from Johns Hopkins School of 
Advanced International Studies in 1984. And we will start with 
you Mr. Blake.

     STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT 
  SECRETARY, BUREAU OF CENTRAL AND SOUTH ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Blake. Thank you very much, Mr. Chairman and 
members of the committee. I am really delighted to be here 
today to talk a little bit about our policy in Central Asia. At 
the outset, let me say that we really welcome both of your 
comments about working with us to deepen our engagement in 
Central Asia, which is such an important region for us in the 
world.
    Mr. Chairman, I have a longer statement, and I will just 
make a very short one and I will submit the longer one for the 
record.
    Mr. Chairman, the United States has an important interest 
in promoting a stable, secure, democratic and prosperous 
Central Asia. These interests shape our core U.S. policy 
objectives which are encouraging Central Asia's help in 
stabilizing Afghanistan, protecting democracy, combating 
narcotics trafficking, promoting balance to energy policies in 
nonproliferation, and fostering competitive market economies.
    Over the past 2 years we worked to broaden the atmosphere 
of trust and strengthen relations with the governments and 
people of Central Asia through annual bilateral consultations 
that we have instituted with each country. These constitute 
face-to-face structured dialogues based on a jointly developed 
comprehensive agenda that addresses the full spectrum of our 
bilateral priorities.
    We have conducted a thorough review of our assistance 
programs in Central Asia to ensure that they are closely linked 
with our priorities. The President's fiscal 2012 budget request 
includes a 6 percent decrease in funding for the Central Asian 
region compared to budgeted levels for Central Asia in Fiscal 
Year 2010.
    Mr. Chairman, Central Asia plays a vital role in our 
Afghanistan strategy. The Northern Distribution Network is an 
important route for getting nonlethal supplies into Afghanistan 
for U.S. and coalition forces. In addition, the great majority 
of our troops in Afghanistan pass through the Manas Transit 
Center that you discussed with President Otunbayeva.
    This year we have focused on expanding the capacity of the 
Northern Distribution Network to offer multiple alternate 
routes for transiting our cargo into Afghanistan.
    Several Central Asian countries have also maintained their 
own assistance programs such as Kazakhstan's effort to educate 
Afghan students and Uzbekistan's and Turkmenistan's provision 
of much-needed electricity to Afghanistan.
    Let me briefly highlight key issues in each of these 
countries.
    Starting with Kazakhstan, our relationships with Kazakhstan 
are perhaps our deepest and broadest in Central Asia, with 
cooperation across a broad range of fields as diverse as 
nonproliferation, support to Afghanistan, energy and health. 
Kazakhstan has been a global leader on nuclear nonproliferation 
since its earliest days of independence and as Central Asia's 
economic powerhouse. Kazakhstan will account for one of the 
largest increases in non-OPEC supply to the global market in 
the next 10 to 15 years as its oil production doubles to reach 
3 million barrels a day by 2020.
    We continue to encourage the government to enhance 
democracy, human rights and the role of civil society. 
Kazakhstan will hold early Presidential elections on April 3, 
2011, and we in the international community see these elections 
as an important opportunity to strengthen the electoral process 
there.
    In Uzbekistan, over the past 2 years we have worked hard to 
build stronger relations with that important country. 
Uzbekistan remains a valued partner for its participation in 
NDN, its role in exporting reasonably priced electricity to 
Afghanistan and its construction of an important railway link 
into Afghanistan.
    We continue to encourage the Uzbek authorities to address 
significant human rights concerns, including ending forced 
child labor in the cotton harvest, opening up the media 
environment, curtailing abuses by security forces, and ending 
harassment of civil society and international NGOs.
    Helping Kyrgyzstan consolidate its successful transition 
last year to a parliamentary democracy remains a top priority 
for the United States. People around the region and beyond are 
watching closely and will make future judgments about the 
efficacy of democratic governance based on the success or 
failure of Kyrgyzstan.
    As you mentioned, President Otunbayeva just concluded a 
very productive visit to the United States this week, during 
which Secretary Clinton presented her and nine others with the 
International Women of Courage Award. We continue to monitor 
the potential for renewed ethic violence as tensions remain 
following violence in the south last June. In our actions with 
the government we have encouraged accountability, equal access 
to justice, respect for human rights and reconciliation.
    Tajikistan is one of the poorest countries in the world and 
a very fragile state in a volatile neighborhood. U.S. policy 
there is to support the country in maintaining stability and 
creating the conditions for economic and democratic 
development. With the resources that we put into our 
partnership with Tajikistan, we seek to help improve law 
enforcement and border security capabilities, increase food 
security, improve the health and education of its citizens, and 
build good governance.
    As our reports on human rights and on the investment 
climate and religious freedom have made clear, we have concerns 
about the pace and direction of political developments there, 
as well as restrictions on religious and media freedoms. These 
continue to be very important parts of our dialogue.
    Lastly, Turkmenistan is a country of growing importance as 
well to the United States. It has important hydrocarbon 
resources and is seeking alternative routes for distribution. 
One such project is the Turkmenistan-Afghanistan-India-
Pakistan, or TAPI, pipeline, which President Berdimuhamedov is 
taking a leading role in getting off the ground.
    We also appreciate Turkmenistan's humanitarian help to its 
neighbor Afghanistan by providing discounted electricity, 
housing and other assistance. We continue to encourage the 
Turkmen Government to take concrete steps to fulfill its 
international obligations on human rights, and we have offered 
assistance to help advance those goals.
    Mr. Chairman, in conclusion we see a future in which the 
United States and the countries of Central Asia will work 
closely together for peace, security, economic development, 
democracy and prosperity. Again, I thank you very much for the 
opportunity to appear today and look forward to working closely 
with you and your colleagues.
    Mr. Burton. Thank you very much Secretary Blake. I 
appreciate you giving us that comprehensive report.
    [The prepared statement of Mr. Blake follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Burton. We probably will have votes here in an another 
15 minutes. I want to apologize because we will have to break 
for votes. We will go ahead and go as far as we can, and then 
we will come back as soon as we get through the issues on the 
floor.
    Phil Gordon. Philip Gordon is the Assistant Secretary for 
the Bureau of European and Eurasian Affairs. He was appointed 
in 2009, May. He was nominated as Assistant Secretary on March 
6th of 2009 and took the office in May. From 2000 to 2009 he 
was a senior fellow at the Brookings Institution in Washington 
where he focused on a wide range of European and U.S. foreign 
policy issues.
    Prior to joining Brookings, Dr. Gordon was director for 
European affairs at the National Security Council under 
President Bill Clinton. At the NSC, he played a key role in 
developing and coordinating NATO policy in the run-up to the 
Alliance's 50th anniversary summit in Washington, DC. He has 
also held teaching and research posts at the International 
Institute for Strategic Studies in London; the Johns Hopkins 
University School of Advanced International Studies in 
Washington; INSEAD in Fontainebleau, France, and Singapore; and 
the German Society for Foreign Affairs in Bonn.
    Dr. Gordon has a Ph.D. and an M.A. in European studies from 
Johns Hopkins University and a B.A. in French and philosophy 
from Ohio University. His working languages include French, 
German, Italian and some Spanish.
    You are going to have to help me with some of that. My wife 
speaks four or five languages, and when she gets angry at me I 
never know what she is saying.
    He has published a number of books and articles on 
international relations and foreign policy and has been a 
frequent contributor to major publications such as the New York 
Times, Washington Post, International Herald Tribune and 
Financial Times. Welcome. Dr. Gordon you have the floor.

    STATEMENT OF THE HONORABLE PHILIP H. GORDON, ASSISTANT 
   SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Gordon. Thank you very much, Mr. Chairman. I am also 
delighted to be here and I want to thank you and the rest of 
the committee for holding these important hearings. I have in 
the past, my bureau worked very closely and well with this 
committee, and I look forward to doing so under your 
chairmanship. I have also submitted a longer statement for the 
record.
    Mr. Burton. Sure.
    Mr. Gordon. With your permission, I will just make a few 
brief remarks to kick us off here. I will start with a very 
simple point, which is that our engagement with Europe begins 
with the idea that the United States has a very daunting 
international agenda and we cannot possibly deal with it alone. 
And as we meet the challenges that we face, we have no better 
partner than Europe, where we work with democratic, prosperous, 
militarily capable allies who share our values and share our 
interests. As President Obama recently put it, Europe is ``the 
cornerstone of our engagement with the world.''
    There are three basic objectives that stand out in our 
efforts for Europe. And I would like to talk a little bit about 
each.
    First, we work with Europe as a partner in meeting global 
challenges. No matter what the issue, whether it is the war in 
Afghanistan, efforts to contain the Iranian nuclear challenge, 
the situation in Libya that is evolving before our eyes today, 
Europe is a critical partner.
    Second, we are still working with Europe on Europe. That is 
to say, working to complete the historic project of helping to 
extend stability, democracy, and prosperity to the entire 
continent. Our work in promoting European integration is not 
yet done and the effort continues today in the Balkans, in 
Europe's east, and in the Caucasus.
    Finally, we have sought to set relations with Russia on a 
more constructive course. Our goal has been to cooperate with 
Russia where we have some common interests, but not--let me be 
clear--at the expense of our principles or our friends.
    When I look back at the last 2 years, the 2 years of the 
Obama administration, I think we can point to some significant 
developments and progress in each of these priority areas. On 
working with Europe on global challenges, we have pulled 
together as never before with our European partners.
    Just some specifics. In Afghanistan European countries now 
provide nearly 40,000 troops and the total European financial 
contribution to Afghanistan since 2001 comes to around $14 
billion.
    In Iran, we have maintained unity in our efforts to engage 
and, at the same time, seen the strongest set of sanctions 
adopted by the U.N. Security Council and even more robust set 
of follow-on sanctions adopted by the European Union.
    On missile defense, NATO allies decided to develop a 
capability that will provide full coverage and protection from 
ballistic missile threats for all NATO European territory, 
population and forces.
    In North Africa and the Middle East, we are consulting and 
cooperating very closely with our European partners on a daily 
basis as the situation rapidly evolves. Working together in 
multilateral fora, we have joined with others to impose a U.N. 
arms embargo on Libya, to suspend Libya from the Human Rights 
Council, and we have closely coordinated at NATO, and we have 
coordinated additional sanctions on Libya with the European 
Union and its member states.
    In the second area, extending the European zone of 
prosperity, stability and democracy, we have had some important 
successes but we are cognizant that important challenges also 
remain.
    In the Balkans, the United States and Europe strongly share 
the view that Europe will not be complete until all of the 
countries of the Western Balkans are fully integrated into 
Western institutions. On all of the issues in the region, 
including the dialogue between Serbia and Kosovo that began 
this week, but also on the question of the future of Bosnia, on 
Croatia's path to the European Union, we continue to consult 
closely with Europe on what really is a joint project.
    In Belarus, we have had a joint response to the recent 
crackdown. Together, we have made very clear that business as 
usual will not continue as long as the suppression of civil 
society, the opposition, and independent media continues. The 
United States and the European Union have called for the 
immediate and unconditional release of all detainees and we 
have tightened sanctions, while at the same time reaching out 
to support the aspirations of civil society and the people of 
Belarus.
    In the Caucasus, our efforts with the European Union in the 
region have resulted in some progress, but disputes over 
territory remain and there is an ongoing need for further 
political and economic reform.
    In Georgia, steadfast engagement and generous assistance 
have aided in transforming Georgia into a developing democracy 
and an important partner to NATO in Afghanistan. Together, we 
will maintain our support for integrity and sovereignty within 
internationally recognized borders.
    Finally, in one of the most important parts of our European 
agenda, our reset with Russia, the policy has paid significant 
dividends. We think the results speak for themselves. We have 
completed a new START treaty, advancing our goals in the area 
of nonproliferation. We have signed an agreement for the 
transit of troops and materials across Russia in support of our 
efforts in Afghanistan. We have secured Russia's cooperation in 
dealing with Iran and North Korea's nuclear programs. We have 
done all of this, I will stress again, without compromising our 
principles; in particular, our steadfast commitment to the 
sovereignty and territorial integrity of all of the nations of 
Europe.
    Clearly there remains much work to be done on all of these 
issues. None of them is easy, particularly at a time of 
budgetary austerity. I am confident that the partnership 
between the United States and Europe, which has achieved so 
much and has received such welcome bipartisan support over the 
past decades, will achieve even greater things in the decades 
to come. I look forward to discussing it with you here today.
    Mr. Burton. Thank you, Dr. Gordon.
    [The prepared statement of Mr. Gordon follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Burton. I want to confine everybody to 5 minutes, 
including myself, because of the time constraints we are under.
    You just indicated, Secretary Gordon, or Dr. Gordon, that 
allies like Lithuania, Latvia, and Estonia haven't been hurt 
because of our relationship with Russia. And there is a great 
deal of conjecture about that. So I would like for you to 
respond to that question.
    I would also like to know if you could give us an update on 
the tension between Georgia and Russia, since that whole area 
is of great concern to us. And with the Olympics coming up, we 
would like to see what the future holds.
    Mr. Gordon. Sure. Thank you, Mr. Chairman.
    I mean, the Baltic states should obviously speak for 
themselves and their views of the reset and our relationship 
with Russia, but our sense is that they are satisfied that as 
we pursue a better relationship with Russia, there are benefits 
to their security as well. And I said in my statement that we 
have pursued this relationship with Russia out of our common 
interests. We feel that we do have some overlapping interests 
with Russia on nonproliferation, terrorism, containing Iran, 
Afghanistan, and that is to our mutual benefit.
    The part of it that we are equally insistent on is that 
none of it compromises in any way the view that Vice President 
Biden outlined when he first publicly used the word ``reset'' 
at the Munich Security Conference in 2009; that the states of 
Europe have the right to join the security alliance that they 
choose, and that the Baltic states have chosen to join NATO; 
there should be no spheres of influence within Europe. And we 
have exercised that policy through our strong support for 
Georgia.
    I mentioned our support for Georgia's sovereignty and 
territorial integrity through our determination to continue to 
support the defense of Europe through missile defense 
deployments and NATO enlargement.
    Mr. Burton. Your meetings and the Secretary's meetings with 
the Russians, have they gone specifically into the issues that 
we just outlined? I mean, because the information that I get is 
there is continued tensions and pressure there, and that Russia 
continues to push these countries pretty hard.
    I just wondered, is the administration doing anything to 
let Russia know, especially in exchange for some of these 
treaties that we have made--some are questioned by many of us 
in Congress--that they do not try to expand their sphere of 
influence like they did back in the old USSR days.
    Mr. Gordon. Yes, Mr. Chairman. I can assure you that both 
publicly and directly, privately with the Russians, we make the 
same points.
    Mr. Burton. Are you making any progress?
    Mr. Gordon. Yes, I think so. I think that the overall 
atmosphere with Russia is better. I think there is less of a 
zero-sum attitude among Russians. I would encourage you to look 
at some of the very interesting public opinion polling coming 
out of Russia about Russian views of the United States and 
Russian views of NATO.
    Mr. Burton. Well, since I want to ask you some more 
questions during my time, if you could forward any information 
like that, that I could read, I would really appreciate it.
    Russia continues, as I understand it, to give Iran 
technology that is of great concern to us and has been doing it 
for a long time, and, you indicated, that Russia was working 
with us in a more compatible way. It still bothers me that they 
are doing business with Iran at a time when we have got 
sanctions against them and most of the free world does.
    Mr. Gordon. I did note that cooperation of Russia with Iran 
was one of the things that we felt was moving in a positive 
direction over the past year or so.
    Mr. Burton. What does that mean?
    Mr. Gordon. Well, it means that they supported and voted 
with us on the Security Council Resolution 1929, which is the 
most aggressive set of sanctions that the international 
community has ever put on Iran; that whereas in the past, my 
bureau they had signed a deal to send S-300 air defense systems 
to Iran, which we have considered a potential threat, they 
stood down on the sale and publicly announced that in the wake 
of the U.N. Security Council Resolution that they joined us in 
supporting, that they won't do that. We feel that is very 
important progress.
    Mr. Burton. Well, it does sound like progress. Are they 
still doing business with and selling technology to Iran and 
other materials that might be of interest to us?
    Mr. Gordon. In terms of anything that would assist the 
Iranian nuclear program, we believe that they have absolutely 
abided by Resolution 1929.
    Mr. Burton. You believe; you don't have any guarantee of 
that?
    Mr. Gordon. We don't have any evidence that they have----
    Mr. Burton. Does our intelligence indicate that--our 
intelligence agencies indicate----
    Mr. Gordon. We don't have any evidence that they have not 
been abiding by----
    Mr. Burton. Well, if you do have any, could we have that 
forwarded to the committee, especially if it is classified.
    I have one more question and then I will yield to my 
colleague. What is the status of the no-fly zone regarding 
Libya as far as our allies are concerned? Are they willing, 
able, and ready to assist us if we need to impose that kind of 
a situation on Libya?
    Mr. Gordon. As Secretary Clinton has pointed out, this is 
something that has been under active consideration both within 
the United States and with our allies. Just today in Brussels 
was a NATO Defense Ministers meeting. Last week NATO agreed to 
proceed for planning for a potential no-fly zone should our 
leaders decide that it would be effective in our interest to 
pursue, and Secretary Gates and his counterparts discussed that 
at NATO today. No decisions were taken and no decisions were 
meant to be taken.
    Mr. Burton. Well--I will yield to my colleague. Let me just 
end by saying people are getting killed over there every day 
because they are fighting against Ghadafi for freedom. So I 
hope we will speed up the process.
    Mr. Meeks.
    Mr. Meeks. Thank you. Again, thank you for your testimony, 
and you have a very ambitious, I think, agenda and priorities. 
And one of the questions I have: Are we able to provide the 
support to strengthen these developing democracies, especially 
in Central Asia, or to encourage the democratic initiatives in 
Belarus and others; especially given what had been proposed in 
cutbacks through the CR and in the budget next year?
    One of the things that we have noticed is that our allies 
in Britain have done, and they are suffering from the same kind 
of fiscal problem that we have, they have not cut their foreign 
budget at all and continue to move forward. So how are we going 
to do all of these things we are talking about given what the 
budget realities may be that we are looking at right now?
    Mr. Gordon. Thank you, Congressman Meeks, for raising that 
question which is vitally important, and it allows me to say 
how important it is that we maintain our assistance programs to 
these parts of Europe.
    As the chairman pointed out in his opening statement, we 
have indeed proposed for the 2012 budget a 14 percent cut. The 
President has asked all agencies to tighten their belts. We 
know how rigorous the budgetary picture is and we have done 
just that and are really looking very carefully at our 
assistance across the board in Europe, Eurasia, and Central 
Asia, and we have proposed what we think is a significant cut.
    But we also need to underscore how important it is to 
maintain these assistance programs. It is not simple 
generosity, but it is in the core U.S. national interest to 
sustain the democracies that we have promoted for 20 years and 
who are now our partners.
    If you just take the countries in the part of Europe that 
are receiving our assistance in Central and Eastern Europe, 
they are contributing some 10,000 troops to Afghanistan because 
they are now more stable, democratic and capable allies who 
have joined the EU and NATO, and that investment is paying off. 
It is also part of the world where there are ongoing risks of 
narcotics trafficking, trafficking in persons, 
nonproliferation, and our assistance there helps secure our 
national interest by helping us to fight those problems as 
well.
    And finally, our assistance to these areas as they 
contribute to stability and prosperity helps create the growing 
economies that end up buying our goods and allowing us to 
export. So we want to be careful, even as we do tighten our 
budgets and make sure that all assistance is well spent, that 
at the same time we don't sacrifice long-term interests for the 
sake of short-term cuts.
    Ambassador Blake. Let me just add on Central Asia, I think 
it is just to echo what Phil said, I think it is absolutely 
critical that we maintain our assistance to Central Asia at 
this particular moment.
    Let me give you a few examples of how our aid is really 
helping. First, as I mentioned in my testimony, all of these 
countries are providing assistance. Many of them are helping 
the Northern Distribution Network. Others are providing 
electricity in Afghanistan, which is a very, very important 
part of the stabilization effort. And then others are providing 
things like scholarships and so forth.
    Secondly, several of the central Asian countries are quite 
unstable and face internal threats, particularly Tajikistan. 
That is our second largest form of assistance in Central Asia, 
and our assistance directly addresses the roots of poverty and 
the roots of instability and the isolation, the poverty, the 
degraded health and education systems, the poor governance, 
corruption. I think all of these will really make a difference. 
It is very, very important to continue those programs.
    Lastly, I think our assistance was quite important in one 
of our signature democratic successes, which was the emergence 
of a parliamentary democracy last year in Kyrgyzstan. And our 
assistance, I am really proud to say, played an important role 
in that. We funded candidate debates, we helped the police to 
understand how to better manage the whole process so that they 
could do this in a way that peaceful democratic elections would 
result. That did happen.
    We provided extensive training and monitoring in vote 
tabulation. As a result of that, these elections came off very 
peacefully and they were judged free and fair. Our assistance 
is well spent, well targeted, and definitely should be 
maintained.
    Mr. Meeks. Let me just ask this question real quick in the 
time I have left. And I think, as Mr. Engel has stated earlier, 
one of the things that I think is important when we talk about 
what is happening in Northern Africa is that previously we got 
stuck with going it alone and disregarding our allies. In fact, 
that is the last time that we had trouble with a number of our 
longstanding allies in Europe, because we didn't consult them 
and they looked at us as though we don't consider them or they 
became valueless to us.
    So my hope is, and I think that as we are doing this, have 
we talked with our NATO allies now, trying to figure out what 
they are doing and what we can do together for the betterment 
of all of us?
    Ambassador Blake. Well, let me just speak for the Central 
Asia. Last year, when we ramped up our democracy assistance to 
Kyrgyzstan to help prepare for the elections, we closely 
coordinated with the EU, with the OSCE, the Organization for 
Security and Cooperation in Europe, and with other key donors 
to make sure that we weren't duplicating efforts and, in fact, 
we were all working together as one team. I think that was 
very, very effective. And we are doing that across the board. 
We are doing that in Tajikistan as well, where we found that in 
fact Tajikistan on a per capita basis gets less assistance than 
many of the sub-Saharan African countries.
    Mr. Burton. If you could send additional information to 
Congressman Meeks, it would be helpful.
    Ambassador Blake. Sure.
    Mr. Burton. I am trying to make sure everybody gets to ask 
questions.
    Go ahead.
    Mr. Bilirakis. I have one question. Thank you, Mr. 
Chairman. Thank you so much for your important testimony today. 
As cochair of the Hellenic Caucus and as a strong advocate of 
the State of Israel, I have been working enthusiastically to 
enhance the bonds between the two countries. As such, I was 
pleased that Cyprus and Israel signed an agreement delineating 
the exclusion of economic zone just last year. The agreement 
allows these two neighbors to forge ahead in the search for 
energy sources in the eastern Mediterranean.
    Recently discovered evidence of major gas finds off the 
shores of Israel and Cyprus have been very promising. Given the 
importance that we all attach to the need for the 
diversification of sources and routes of energy supplies, this 
is a significant and timely development. I am sure you will 
agree.
    Not everyone was pleased, however, after the EEZ was made. 
Turkey expressed dismay and suggested that such a bond between 
Israel and Cyprus was not lawful. Will you confirm that it is 
the right of the two countries to proceed with exploration 
without interference from a third party?
    Mr. Gordon. Thank you. We are also encouraged by the 
development of ties between Cyprus and Israel. I was in Athens 
just this week and heard about those positive developments, and 
I was in Nicosia the week before and heard much about the 
energy developments, which we think are a positive thing.
    We are also encouraged that an American firm is playing a 
major role in renewable energy in this development, and we 
support such development to promote energy diversity in Europe 
and relations between Cyprus and Israel.
    Mr. Bilirakis. The two countries have the right to proceed; 
is that correct?
    Mr. Gordon. As far as I understand the two countries have 
the right to proceed.
    Mr. Burton. We have been 7\1/2\ minutes on the clock. Do 
you have a question?
    Mr. Sires. Could you describe to me to what extent European 
countries are implementing their sanctions on Iran?
    Mr. Gordon. As I noted in my testimony, Iran is one of the 
examples of how our cooperation has progressed. As I noted, in 
addition to supporting the additional--the U.N. Sanctions on 
Iran, UIVSCR 1929, the EU separately passed complementary 
sanctions. And all evidence we have is that they are 
implementing those sanctions vigorously and cooperating with 
our own national legislation in terms of sanctions on Iran.
    Mr. Sires. Can you talk about the impact that the EU 
defense budget cuts are going to have on NATO and our 
relationship? Many people are concerned it will wind up on us 
to carry NATO. Can you talk a little bit about that?
    Mr. Gordon. We have consistently underscored the importance 
of maintaining significant defense spending as we face all of 
these challenges. We talk about Afghanistan, Pakistan, Iran, 
Libya, Egypt. The world faces significant instability and it is 
not a time for countries to be getting out of the defense and 
security business.
    We have encouraged NATO allies to spend around at least 2 
percent of their GDP on defense. And I have to say not a whole 
lot, or many of them, are falling short of that goal. So we are 
in constant discussions with them, and I can assure you that 
Secretary Gates, today in Brussels, will have raised that issue 
as well.
    Mr. Sires. Is there concern about the U.K. and Germany to 
carry the brunt of it?
    Mr. Gordon. Even some who have traditionally been in the 
forefront, everyone is facing tight budgets, and obviously we 
understand that. We are, too. We are looking carefully at our 
defense budget. But we are also collectively reminding 
ourselves that in this unstable world, countries need to 
maintain capabilities.
    Mr. Burton. We have about 5 minutes. We will come back 
after the votes. I hate to keep you gentlemen here. We will 
probably be about 25 or 30 minutes. I apologize for that, but 
we shall return.
    [Recess.]
    Mr. Burton. First of all, I apologize because we had so 
much going on over there. There is one thing about being in the 
Congress, like being in the agencies of government, your life 
is not your own. Why does everybody want this job? I don't 
understand it.
    While we are waiting, maybe you can elaborate on where our 
allies stand on the no-fly zone. I know there has been 
discussions. But every day that we wait, those people are 
firing into the air with weapons that won't reach a jet. And I 
also would like to know where those planes are coming from. I 
have been told by some people in the military that those planes 
are coming from Syria, that Syria is providing some of the jets 
that are doing the attacking of the civilians on the ground. If 
you could give me a little enlightenment on that, I would 
appreciate it.
    Mr. Gordon. Picking up on what we were discussing earlier, 
I did say that this was something under active consideration 
both here and with our allies. At NATO today, defense ministers 
agreed on certain principles as we think about options before 
us, and they agreed that for NATO to act there would have to be 
a demonstrable need for NATO, there would have to be a clear 
legal basis for action, and there would have to be regional 
support. And that is one thing that we have put a significant 
emphasis on as well. We want to do this together with partners 
and we don't want to go it alone. The regional partners and our 
NATO allies would be critical in any type of enforcement 
operation.
    So on the specific question of the no-fly zone, as I said, 
it is something we are actively studying and NATO is actively 
planning for so that our leaders, if they choose to move in 
that direction, will know what the options are.
    As for Syria, I have no information of outside planes, but 
I would defer to colleagues covering the Middle East and North 
Africa on that question.
    Mr. Burton. We will check on that. When we talked the other 
day, Secretary Blake, about Kazakhstan and Uzbekistan and all 
the area out there, there is only one democracy, true 
democracy, and that came about as a result of the revolution. I 
think it was last April.
    Ambassador Blake. Correct.
    Mr. Burton. Eighty-nine people were killed. And the 
President was very engaging, the lady.
    Can you give us an update on those other surrounding 
countries? I think next week I am having a meeting with the 
Ambassador from Kazakhstan and that certainly doesn't appear to 
be anything like a democratic country. And I would like to know 
your analysis of that while we are waiting on my colleagues.
    Ambassador Blake. I would say that, as you say, Kyrgyzstan 
is definitely the country that has made by far the most 
progress with these free and fair elections that took place and 
now has a parliamentary democracy there. I think Kazakhstan is 
the next furthest along in terms of progress they have made.
    Mr. Burton. What do you mean furthest along?
    Ambassador Blake. I think they have a pretty active civil 
society that we meet with regularly. The civil society has a 
role now and is consulted on, for example, draft legislation. 
And there are elections that do take place. But the opposition 
is very weak.
    Mr. Burton. What is the percentage that the winner gets?
    Ambassador Blake. Exactly. Very high.
    Mr. Burton. 98 percent?
    Ambassador Blake. I don't know if it is that high. We will 
see. President Nazarbayev could have an election coming up now 
on April 3rd. So we will see. But we and the OSC and others 
will be sending monitors there to try to ensure a fair 
electoral process. And I think there is a reasonably good 
chance there will be a fair process.
    In other countries, I would say there are considerably more 
concerns. All of these countries are still led by leaders who 
were part of the ex-Soviet Union. They are frankly suspicious 
of democracy in some cases. And many of them were, I think, 
concerned about what happened in Kyrgyzstan and afraid that it 
was going to cause unrest in their own countries. We didn't see 
that.
    But I can assure you, Mr. Chairman, that democracy and 
human rights and religious freedom and trafficking in persons 
are all very important parts of our dialogue with each one of 
these countries. I think now we have gotten to the point where 
we have very good conversations about these things. They don't 
resist having those talks. But I have to say we haven't made 
too much progress other than Kyrgyzstan. And partly that is 
because they are afraid of the situation in Afghanistan as 
well. They feel that they need to maintain very tight controls 
because of the situation there.
    So this is hard. This is something that we are working hard 
on. We have tried, frankly, to try to leverage the situation in 
Tunisia and Egypt, to make the case to them that all leaders 
around the world need to study very closely what has happened 
in Egypt and Tunisia. And all of them need to be sure that 
their political and economic systems respond to the aspirations 
of their young people and that they address things like 
corruption.
    Mr. Burton. Well, one----
    Ambassador Blake. This is again a very important part of 
our dialogue.
    Mr. Burton. One more thing and then I will yield to my 
colleague, Mr. Engel. You know we are going to go over there 
because at your suggestion, we really need to get over in that 
area, which is 9 million miles from here, but we are willing 
to----
    Ambassador Blake. It is worth it.
    Mr. Burton. I hope the food is good.
    Now, you talk about Kazakhstan. Can you tell me a little 
bit about Turkmenistan and Uzbekistan, as well as Tajikistan as 
far as the totalitarian aspects of those governments? And the 
other part of that is, do the radical fundamentalist Muslims, 
like al-Qaeda and the Taliban, do they have any influence in 
those areas? And if so, how much?
    Ambassador Blake. I would say that there are groups that 
are affiliated with al-Qaeda, like the IMU, the Islamic 
Movement of Uzbekistan. They very much target these 
governments, particularly Uzbekistan, but also to a more 
limited extent Tajikistan. And there are other groups that are 
based in Pakistan particularly that are actively seeking to 
undermine these governments. So an important part of our 
dialogue also with these countries is to help with border 
security, counternarcotics, and other forms of counterterrorist 
assistance. Because as they are helping us in Afghanistan, they 
have become more of a target in terms of retribution from some 
of these groups. So this is an important part of our 
cooperation with these countries and you will see that 
reflected in our assistance priorities.
    Mr. Burton. One more thing real quick. And that is Iran 
borders Turkmenistan and Afghanistan as well, as you know. And 
that to me sounds like it may be one of the first targets, if 
it isn't already a target, of the Iranian Government. Do you 
see any indication that they are moving aggressively north 
there?
    Ambassador Blake. I don't see any indication of that, in 
part because Turkmenistan has maintained a policy of what they 
call positive neutrality and they try to again stay very 
neutral in all of these various territorial disputes and 
maintain good relations with all of these countries. They do 
implement the U.N. sanctions against Iran. But at the same 
time, since they have a very substantial border with Iran, they 
have to maintain a dialogue with them. And for that same 
reason, they are more careful about what they do with respect 
to Afghanistan. As I say, they have been providing electricity 
and things like that. That is mostly what they do in terms of 
support for efforts there.
    Mr. Burton. Mr. Engel, do you have some questions?
    Mr. Engel. Yes, sir, Mr. Chairman. Thank you. Thank you 
very much. In my opening remarks, I mentioned the ongoing talks 
between Serbia and Kosovo. I frankly am happy. I hope that 
these talks will eventually be a basis where the two countries 
can reconcile. Last month I wrote a bipartisan letter to 
President Obama, cosigned by many members of this committee, 
bipartisan--I think Mr. Burton signed it as well. I may be 
wrong, but I think he did--urging that the United States make 
Kosovo and the southern Balkans a priority. The letter said it 
is important that we play a leading role in any talks between 
Serbia and Kosovo and that we work with our friends in the EU 
to ensure that Kosovo has a future which will allow integration 
into the key Euro-Atlantic structures. I have no objection to 
Serbia joining the EU. I just want Serbia and Kosovo to join 
the EU. And I don't want Serbia to go into the EU before Kosovo 
because then Serbia could block Kosovo, as is happening in the 
United Nations now.
    So could you please talk about that, Secretary Gordon? The 
Serbia-Kosovo talks just started and Deputy Assistant Secretary 
Countryman is there. So tell us all about that.
    Mr. Gordon. Thank you very much for raising this issue, and 
I think I can confidently tell you it is indeed a priority of 
the administration, something we have focused very heavily on. 
You mentioned the talks that are underway this week. And like 
you, we are encouraged by this. This is the first time that the 
leaders--that representatives of these countries have sat down 
at a table since the conflict and started to work practically 
on the issues that they need to sort out to move forward. Some 
fundamental differences obviously remain. But the first step in 
the process is to engage and to start to take steps and improve 
the lives of people in both countries.
    So we are encouraged by that. We are also involved. You 
said you thought it was important for the United States to be 
involved. We have been very much engaged from the start. These 
are EU-facilitated talks. And that is appropriate, as you said, 
the big factor in this, an incentive for both countries to move 
in the right direction of EU membership. We find that 
appropriate.
    But as I said, in my opening statement, we work very 
closely with the EU across the board and certainly on this 
issue, as you noted, Deputy Assistant Secretary Countryman is 
there now.
    It is worth underscoring the background to these talks as 
well, which stem in part from the results of the International 
Court of Justice opinion last summer that ruled consistent with 
what we argued before the Court, that there was nothing in 
Kosovo's declaration of independence that was inconsistent with 
international law. And in the wake of that opinion, which we 
wholeheartedly agreed with, the European Union took the lead 
and we were pleased that Serbia agreed in the context of a U.N. 
General Assembly resolution to have these EU-facilitated talks 
with strong support from the United States.
    So that is pointing in the right direction. We are not at 
all naive about the difficulties that remain. But getting the 
countries to sit down and start working the practical issues 
together is a very positive thing.
    Mr. Burton. Would the gentleman yield?
    Mr. Engel. Certainly.
    Mr. Burton. Because I don't want to get off this subject 
since you have already raised it. We were just over there and 
we were in Serbia, Montenegro and Croatia. And one of the big 
concerns that the Serbs have is that in the northern part of 
Kosovo and the southern part of Serbia, you have some real 
flash points. There is a lot of Serbs who live in northern 
Kosovo and the monasteries and churches there have been 
attacked in the past and destroyed as they have been in Bosnia. 
And the reason that the Serbs have been so concerned is the 
gentleman who is in charge of security there for Kosovo, as I 
understand it, was one of the leaders of the movement that did 
some destruction of churches and monasteries. And the only 
reason I bring this up is because stabilizing that region is, 
as my colleague has just said, is extremely important. And I 
would just like to know if there has been any progress made 
between the two.
    I know the Serbs don't even want to recognize Kosovo yet 
because that is still an undecided area, it is still in 
question. And if Serbia is going to become a member of the EU, 
there is going to have to be a resolution of that problem. And 
Serbia is scared to death that those people who live in 
northern Kosovo are going to be under attack and those churches 
and monasteries will.
    So as a follow-up to my colleague--and I will yield back to 
him--I would like to know what we are doing and what can be 
done to make sure that there is stabilization in that area?
    Mr. Gordon. Absolutely. Thank you, Mr. Chairman. That is an 
important issue to us and to the parties. You are right that 
there are significant numbers of ethnic Serbs who live in 
northern Kosovo. It has always been our view and it is the view 
of the Government of Kosovo that there should be a significant 
amount of self-government and also--and this was critically 
important from the start--that all of the Serb religious and 
cultural sites should be preserved and protected. And we have 
played a role, the international community in our presence has 
played a role in that process, but we also think the Government 
of Kosovo is committed to that as well, ensuring that these 
sights--that Serbs have access to these sites and that, as I 
say, they are preserved and protected. That has been a 
fundamental premise of ours going in and it remains so.
    Mr. Burton. If I might follow up just real quickly and then 
I will yield back to my colleague. I think it is important that 
while we are involved in negotiations, even though we are not 
part of the EU, we do have some influence and we are going to 
be going over to Brussels before long to talk to our 
counterparts in the EU. But it seems to me that there ought to 
be a provision that is raised by the EU members that if there 
is violence--and there has been attacks on the Serbs in 
northern Kosovo and more destruction of churches and 
monasteries--that will weigh heavily on the decision to become 
a part of the EU.
    I yield back to my colleague.
    Mr. Engel. Thank you. I would just like to mention that I 
agree with Mr. Burton and I disagree. First of all, attacking 
anybody's religious institutions is abhorrent and should be 
condemned by everybody. I have been a supporter of Kosovo 
independence for the 22 years I have been in Congress. And 
early on, I was talking about monasteries in Kosovo have to be 
protected just the way frankly mosques needed to be protected 
when Milosevic, the head of Serbia, ruled Kosovo because you 
can point out tit-for-tat that is the Balkans. I think that 
these should all be preserved. And just the way there are Serbs 
in northern Mitrovica, which is at the northern part as you 
mention, Mr. Burton, there are also a number of Albanians in 
the Presheva Valley, which is in Serbia, which is just below. 
Unfortunately, in the Balkans, you always have a situation. And 
my feeling is once you start transferring authority in the 
Balkans, where does it end? You have got Republika Srpska, you 
have got the Croats together in Bosnia, you have got a huge 
Albanian presence in Macedonia. And where does it end? I would 
hope that Kosovo will remain a multi-ethnic community with an 
Albanian majority, of course with minority rights. And the new 
government that was formed in Kosovo just recently, the Serb 
parties are an integral part of that majority in that 
government. And we have found that the majority of Serbs in 
Kosovo don't live on the northern stretch. They actually live 
throughout the country and they are participating more and more 
in the fabric of Kosovo's democracy.
    So I would hope that would be true ultimately for the Serb 
population in North Mitrovica, that they would see that there 
is room for them to participate democratically in Kosovo 
because after all that is where they live. But when we talk 
about the Balkans, it always goes back generations and 
generations.
    So the point I wanted to make, Secretary Gordon--you and I 
have talked about this. And I really just want to commend you 
and the administration for being on top of it--is that I have 
felt--and I know Mr. Burton agrees with me because we have 
talked about this--that when the United States is sort of not 
totally engaged suddenly in Europe--it happened in Bosnia, as 
far as I am concerned because we weren't engaged until we had 
the bombing, and it happened in Kosovo in 1999. And our strong 
presence just needs to be there. And again, I want fairness for 
Serbs and fairness for Albanians and fairness for Croats and 
everyone else. But I think we have to be there. Because if we 
are not, we are not going to get fairness.
    Mr. Gordon. Thank you very much. I would like to say, first 
of all, thank you for your support on these issues. We have 
made progress on the issue of international recognition, in 
part, thanks to your vigorous efforts, which match ours. I also 
want to say that what you have described in terms of 
representation for the Serbs in Kosovo is our policy. We were 
encouraged when Kosovo--because we want to support a multi-
ethnic democracy in Kosovo and elsewhere--when Kosovo moved to 
organize voting in municipalities that were majority Serbs, as 
you know very well, there was a lot of skepticism about whether 
the Serbs would vote. They did vote. They elected mayors. And I 
have had the chance to meet with those mayors, as has the Vice 
President and the Secretary of State, on trips to Kosovo. And 
it was very encouraging to see that in this country, a minority 
ethnic group can feel it was represented and have a voice in 
the democracy. And that is exactly what we wanted to see. And, 
so it is what we would like to see in North Mitrovica as well.
    My last point, if I might just again agree with you on the 
question of engagement, even with lots of other important 
things going on in the world, the United States needs to be 
present. And I made a reference to the Vice President traveling 
there, the Secretary traveling there, to Deputy Secretary 
Steinberg, a number of times and I have been there multiple 
times, including with them, we are very much focused and 
engaged.
    Mr. Engel. Thank you. I am wondering if I could switch to 
another topic. And that is Turkey. I know it was mentioned 
before by--Mr. Bilirakis had mentioned some concerns. And I do 
have a concern about Turkey's switch when it comes to Israel. 
Turkey at one time, as we know, was aligned very strongly both 
in terms of military and other ways with Israel, and lately 
Turkey has been very hostile. I wondered if you could just 
comment on that. We all know what has happened. Some of us met 
with the Turkish Foreign Minister a couple of months ago. It 
was very unsatisfying, I must say. And it just kind of annoys 
me with what I view as hypocrisy--it is not a very good 
diplomatic word. But Turkey condemns Israel for attacking 
terrorists in Gaza when Turkey feels it can just go over the 
border into Iraq and get at what they feel are Kurdish 
terrorists. They condemn Israel for what they view as 
occupation of lands. Turkey has occupied Northern Cyprus since 
1973. And that Turkey talks about apologies for the flotilla. 
They want apologies from Israel. We can't get Turkey to 
apologize for the Armenian genocide.
    So I think that the policies of Turkey and their actions 
are very troublesome, particularly since they are a NATO 
member.
    Mr. Gordon. Congressman, we regret the recent deterioration 
in relations between the two countries. A positive development 
in relations between Turkey and Israel in the 1990s is one of 
the more encouraging things we saw in the Middle East 
throughout that period. The majority Muslim country, the Jewish 
state reaching across and expanding military cooperation, 
intelligence cooperation, economic cooperation, tourism was all 
flourishing. And that was a real signal throughout the reason 
that countries, regardless of the majority of religion or 
ethnicity, could cooperate.
    Relations have taken a significant turn for the worst. They 
were already afraid somewhat over differences in the region and 
on Turkish position on Gaza and on Iran, but they really took a 
turn for the worse, as you pointed out, over the Mavi Marmara 
incident. And we have encouraged both sides to talk directly. 
They have a very different view of what happened. But they 
shouldn't let that different view stand in the way of--as I 
say, it was a historic relationship. And we have encouraged the 
two sides and they have had direct talks, which they need to 
do, to not let this incident stand in the way of a critically 
important relationship in the region.
    Mr. Engel. My last question, if I might, involves--when the 
Soviet Union fell, I was one of the people on the committee, 
and again as was Mr. Burton, because I remember talking about 
it, that we encouraged NATO to expand. And I thought that the 
sooner NATO did that, the better because in X amount of years 
you don't know, with Russia, whether it would be possible. And 
it seems like the last two countries that have been talked 
about possibly getting in NATO were the Ukraine and Georgia. I 
know there has been changes in Ukraine and Georgia. And, of 
course, now with the situation with Russia, it seems almost 
like an impossibility. If we hadn't brought the Baltic 
countries, Lithuania, Latvia and Estonia into NATO when we did, 
does anyone think that we would have been able to bring them 
into NATO now? It would have been impossible.
    So I just wanted to ask you for your assessment of both 
Georgia, I just met with the new Georgian Ambassador, and 
Ukraine, and what is going on there. I know Georgia is helping 
us in a lot of different ways. I believe in Afghanistan and in 
other ways. And the Ukraine seems to be a country that is sort 
of ripped in half. I wonder if you can comment on those two.
    Mr. Gordon. Looking back, I couldn't agree with you more 
that NATO enlargement is a positive thing. We did the right 
thing. We brought these countries into the alliance. There were 
questions about it at the time, but I think we can confidently 
say, first of all, it didn't, as many feared or speculated, 
ruin our relationship with Russia. But on the contrary, it has 
helped stabilize and consolidate democracy throughout Europe's 
East. It is true for the Baltic states, for the Central 
Europeans and those who have joined NATO since the end of the 
Cold War, most recently Albania and Croatia expanding NATO's--
under this administration--expanding NATO's reach into the 
Balkans.
    Ukraine and Georgia, I think, are very different cases. 
Both have relationships with NATO. There is a commission for 
each, and we have a process going on with both countries to 
help them with defense reform and strengthen their relationship 
with the alliance and their contributions, particularly in the 
case of Georgia, to Afghanistan, which we very much welcome. 
Ukraine is now less interested, under this government, in 
joining NATO than it was under the previous government. And our 
view is simple. We are very clear that countries in Europe have 
the right to choose their own security alliances. And when they 
meet the criteria, if they are interested and NATO would be 
strengthened by their membership, they should join. But if they 
are not interested, it is the prerogative of the government to 
decide not to pursue that.
    So we still have a NATO-Ukraine Commission that meets 
regularly. It is going to meet in April at the ministerial in 
Berlin. And the same is true on Georgia. The NATO-Georgia 
Commission will meet in Berlin. We support Georgia's 
aspirations. And when Georgia has met the criteria and allies 
have a consensus to bring Georgia in, it should be allowed to 
join NATO as well.
    Mr. Engel. Thank you.
    Mr. Burton. Thank you very much. Mr. Engel, you asked some 
very good questions and I want you to know that because of your 
eloquence, we allowed you triple what the other members were 
getting.
    Mr. Engel. You are a good man, Mr. Burton.
    Mr. Burton. Yeah. Thank you. It is easy to get accolades 
from him, isn't it?
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. In light of that, I 
will claim a third less time.
    Secretary Blake, I would like to discuss the influence of 
Iran--it is widely known they are trying to gain influence--
there was a meeting just days ago, I think, between the Kazakh 
Ambassador and the Iranian Prime Minister. Turkmenistan and 
Azerbaijan are the places where it has widely been reported 
that the Iranians exert some influence. If you could speak to 
the extent of these efforts and the extent to which they have 
been successful as well?
    Ambassador Blake. Thank you very much, Mr. Deutch. I would 
say that Iran is actually not a major player in Central Asia. 
By far, the more influential countries are Russia and China and 
now I would say the United States as well. I think it is partly 
because Iran is very focused on kind of challenges inside its 
own country. But I will say that all of the countries in 
Central Asia share our concern about Iran's potential 
acquisition of nuclear weapons, and I think they would consider 
that a very destabilizing development were that to occur.
    So I think they quietly support what we are trying to do. 
Iran has some historical ties to Tajikistan, so you will see 
from time to time visits taking place between those two 
countries. But again, I think in terms of our own diplomacy, we 
are focusing very much on coordinating very closely with the 
Russians, and I think that there has been quite good 
cooperation between the United States and Russia in Central 
Asia.
    And then we are trying to do more with the Chinese as well. 
I am going out myself to China to have consultations about 
Central Asia and South Asia with the Chinese to hopefully get 
them to particularly help our efforts in Afghanistan, but also 
just to learn more about what their policies and plans are in 
Central Asia.
    Mr. Deutch. Let me come at it in a different direction 
then. I understand that the focus is on Russia and that the 
Iranians are concerned about what is going on in their country. 
So let us talk, then, about the support we are getting from 
those countries and the concern that you expressed, that they 
share with the United States about the Iranian nuclear program.
    Ambassador Blake. I cannot really say that they are too 
actively involved in pushing this issue. I think they are 
content to let the P5-plus-1 and others carry the ball on this. 
They have a strong view that other countries should not get 
involved in the internal affairs of other countries on matters 
like this. But again, I think they have been--all of them have 
respected and implemented U.N. Security Council Resolution 929. 
This is something that we follow very, very closely.
    And we are encouraging developments like the Turkmenistan-
Afghanistan-Pakistan-India pipeline because that is a very good 
alternative to the Iran-Pakistan-India pipeline. So this is 
something that has just come about. You may have heard that the 
Turkmenistan President, President Berdymukhammedov hosted a 
meeting in December where they had achieved an intergovernment 
memo agreement on this pipeline and they are moving ahead on 
that. So again, I think that could be a very welcomed 
development for the region and can provide a much needed source 
of gas for India and its growing economy.
    Mr. Deutch. One more question, if I may, Mr. Chairman. 
Secretary Gordon, last summer, the EU adopted this series of 
sanctions to confront Iran's intransigence. In September, the 
Treasury Department sanctioned the Iranian Bank, EIH, which is 
incorporated in Germany. To this point, it is my understanding 
the Germans have failed to act against EIH.
    Can you tell us whether they are pressing Germany to act 
and will the United States sanction foreign banks and companies 
that continue to do business with EIH?
    Mr. Gordon. We have raised this matter with the German 
Government, which under its laws has no basis for shutting EIH. 
But we believe that as a general matter they are fully 
cooperating with us on stopping banking transactions with Iran 
and that EIH, while not closed in Germany, has significantly 
been contained.
    Mr. Deutch. Thank you. I yield back.
    Mr. Burton. Let me make one real brief comment, and then I 
yield for one more question from my good buddy here, Mr. Meeks. 
You said Iran is mainly concerned with problems inside of their 
borders.
    Ambassador Blake. With respect to Central Asia.
    Mr. Burton. Well, I don't buy that. They are working with 
Chavez. They have got flights going back and forth every week. 
Supposedly they are talking about buying uranium from 
Venezuela. There is also indications from sources I have--I 
talked to Ollie North last night, who is over there all the 
time. And there is indications that Syria at the behest and 
with Iran's blessing is working over in Libya with their 
weapons, with their airplanes. And so it is hard for me to 
believe that Iran, who has I think not only regional but 
possibly global goals, that they are not concerned about that 
entire region.
    Ambassador Blake. Sorry. I wasn't clear, Senator--Mr. 
Chairman.
    Mr. Burton. You can call me Senator. Well, I don't want to 
be compared to the lower House over there on the other side. 
But I was a state Senator. So I will allow that. Go ahead.
    Ambassador Blake. Mr. Chairman, I meant that they were not 
involved really in Central Asia at all. Obviously, we have 
tremendous concerns about Iran's support for terrorism around 
the world but particularly in the Middle East. We have 
tremendous concerns about their destabilizing efforts in many, 
many parts of the world, but not in Central Asia. They really 
aren't that big----
    Mr. Burton. Well, I am going over there. I hope you are 
right and I hope you go with me. Are you going to go with me 
when I go over there?
    Ambassador Blake. It depends on when you go, Mr. Chairman.
    Mr. Burton. I was going to have you buy dinner. Can he buy 
me dinner? I don't think he can. The rules won't allow that.
    Mr. Meeks.
    Mr. Meeks. One quick question. I just think--and I also 
thank you for your testimony and for your time and patience 
today. The one area that we may have missed and I just wanted 
to ask that quickly is the question of democratization in the 
Ukraine. And we know that since the last election, there has 
been some selective prosecutions of individuals who were with 
the minority at that point. It was a narrowly won election, 
some rollbacks of freedom of the press and other things. Could 
you just give us a quick update on what is going on in the 
Ukraine?
    Mr. Gordon. Absolutely. Thank you, Mr. Meeks. It is 
something we are watching very carefully. The Ukraine is a big 
and important country in Europe and when we talk about our 
desire to see democracy and prosperity spread throughout 
Europe, Ukraine is a critical piece of that. And I have to say 
that we have concerns about the direction Ukraine has been 
heading on the democracy front. The government that came in 
last year was freely and fairly elected, and it showed that 
Ukraine could have a transition of power based on democracy and 
the will of the people, which is exactly the right thing. And 
that government stressed the priority and emphasis it would put 
on democracy.
    But there have been questions about reform of the electoral 
law, about recent municipal elections and also about the issue 
raised which is the perception of potentially selective 
prosecutions, and we raised that directly with the Ukranian 
Government. We have a good and open and transparent 
relationship with them. We just had a meeting of the U.S.-
Ukraine Strategic Partnership Commission, where Secretary 
Clinton was able to sit down directly with Foreign Minister 
Gryshchenko and have a good and frank discussion of this very 
issue. But I can tell you, Mr. Meeks, she did raise it because 
it is something we are concerned about and we really need to 
see Ukraine doing the right thing on democracy.
    Mr. Burton. Well, I want to thank you very much for your 
patience, first of all with a broken door and waiting in my 
office and then coming over here and having to wait for at 
least an hour for us to get back. I want to thank everybody in 
the audience for their patience as well. We will be back in 
touch with you and really appreciate your testimony.
    We stand adjourned.
    [Whereupon, at 5:14 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Poe deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
      
      
    [Note: No responses were received by the subcommittee to the above 
questions prior to printing.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
